         Review of the Railroad Retirement Board’s PIN/Password System
                            for On-Line Authentication
                       Report No. 03-09, September 8, 2003

                                   INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) decision to use the Personal Identification Number
(PIN)/Password System to authenticate Internet transactions.

Background

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2002, the RRB paid approximately $8.7 billion in railroad retirement and survivor
benefits to about 684,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $105.8 million to some 41,000 claimants.

Expanding electronic government, termed E-Government, is one of the five key
elements of the President’s Management Agenda. Initiated in July 2001, this effort is
designed to make better use of information technology investments to eliminate billions
of dollars of wasteful Federal spending, reduce the government’s paperwork burden on
citizens, and improve government response time. One of the ways the Federal
government plans to accomplish these goals is by integrating technology investments
across agencies.

The Government Paperwork Elimination Act requires Federal agencies, by October 21,
2003, to give customers the option of electronically doing business with the agency and
to accept electronic signatures, when practicable. This Act specifically provides that
electronic records and their related electronic signatures are not to be denied legal
effect, validity, or enforceability merely because they are in electronic form.

In light of this legislation, the agency plans to provide services to the public via the
Internet. One of the issues facing the agency is how to protect the integrity and
confidentiality of electronic records and transactions. Different methods of verifying the
identity of the individual making the transaction offer varying levels of assurance for
integrity and confidentiality. Among these methods in ascending level of assurance
are:

   •   shared secrets methods (e.g. passwords),

   •	 digitized signatures or biometric identifiers such as fingerprints, retinal patterns
      and voice recognition, and

   •   cryptographic digital signatures also known as Public Key Infrastructure (PKI).
Any of these approaches may be appropriate for a given transaction depending on the
balance between the benefits from the electronic process and the risks of harm.

In November 2002, the RRB implemented a PIN/Password system to authenticate
users of the RRB’s Internet services. The agency’s Office of Programs is primarily
responsible for maintaining the system. The system presently allows current and former
railroad employees to conduct some business with the agency on-line.

The PIN/Password System is the gateway to access several completed or planned RRB
Internet services.

   •	 The Service and Compensation On-line component allows railroad employees
      and annuitants to view their railroad service and compensation records via the
      Internet.

   •	 The Retirement Planner component, which should be available in the near future,
      will provide annuity estimates on-line with direct links to an individual’s service
      and compensation records.

   •	 The Internet Unemployment and Sickness Insurance system will enable railroad
      employees to file unemployment applications and claims, as well as sickness
      claims, on-line. The unemployment applications portion of the system should
      also be available in the near future.

   •	 Finally, the system that will allow individuals to apply for retirement annuities via
      the Internet is in the early development stage.

The RRB’s 2002-2005 Strategic Plan includes goals to provide excellent customer
service and to use technology to improve the way the agency does business. The
Internet services are part of the agency’s efforts to accomplish these goals.

Objective, Scope and Methodology

The objective of this review was to assess the agency’s decision process in choosing
the PIN/Password system for authentication of individuals using the agency’s Internet
services. The scope of our review was primarily limited to evaluating the planning and
analysis performed by the RRB during fiscal year 2000 through the November 2002
implementation of the system.

To accomplish our objective, we reviewed applicable laws, regulations, and procedures;
Federal guidance and agency practices; and agency planning documents. We also
interviewed responsible management and staff.
This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at the RRB
headquarters in Chicago, Illinois from April 2003 through August 2003.

RESULTS OF REVIEW

Our review determined that the RRB’s decision process was inadequate because the
agency did not perform the necessary risk and cost benefit analysis before selecting an
authentication method.

Nothing came to our attention during this review to indicate that the RRB’s
PIN/Password system would not be an effective authentication method for the RRB’s
Internet services. However, we did not perform the analysis necessary to determine if
this system is the best authentication method based on costs and risks. It is RRB
management’s responsibility to perform the analysis and make this determination. Also,
we did not test controls for the system during this review, and therefore, we have no
assurance that these controls are working as intended and are effective. The OIG will
perform an evaluation of controls once the RRB performs the required risk and cost
analysis.

We also noted that the RRB placed the PIN/Password system into production without
developing retention schedules for the Federal records obtained and/or produced by the
system. As a result, the system administrators deleted some feedback messages
submitted by users, even though the RRB had not requested the authority to destroy
these records. Based on our audit, the system administrators have stopped deleting
these records and have agreed to develop the necessary retention schedules.
Accordingly, we make no recommendation in this area.

Detailed findings and recommendations are discussed below.

Insufficient Decision Process

The RRB did not adequately follow Federal guidance in its evaluation and selection of
an authentication method for the agency’s Internet services. The agency did not
sufficiently document its consideration of risks and controls. Therefore, we have no
evidence that the agency adequately performed the Federally recommended risk
analysis necessary to support the agency’s decision to use the PIN/Password system.
The RRB also did not perform the recommended cost benefit analysis.

The only documentation prepared by the agency was a limited analysis of its proposed
Internet services. In this analysis, the RRB created three levels of security for Internet
transactions. The highest level uses PKI. The next level uses data encryption and
PIN/Password, and the lowest level uses only data encryption. The RRB then placed
each of the proposed Internet services into one of the three security levels.

The RRB’s documented analysis is insufficient because the agency:
   •	 Provided no documentation for its determination of the appropriate security level
      for each of the Internet services.

   •	 Did not document the inherent risks or the controls mitigating the risks for any of
      the proposed services.

   •	 Did not assess or document the strengths and weaknesses of a PIN/Password
      authentication system or other alternatives.

   •	 Moved on-line Unemployment and Sickness applications and claims from the PKI
      level of security to the lower PIN/Password level without any documented
      reason.

   •	 Reconsidered the use of PKI for benefit applications because of concerns about
      PKI costs, frequency of RRB transactions, and implementation delays in the
      federal PKI program, but provided no detailed data to support this argument.

The Office of Management and Budget (OMB) issued guidance to assist agencies in
implementing the Government Paperwork Elimination Act. The OMB guidance
recommends an assessment on the use and acceptance of electronic documents and
transactions including an evaluation of the suitability of electronic signature alternatives
for a particular application. The assessment should include both a risk analysis and a
cost benefit analysis. In performing the risk analysis, agencies should consider the
relationship of the parties to the transaction, the value of the transaction, the risk of
intrusion, and the future need for accessible and persuasive information regarding the
transaction. The risk analysis should use a combination of quantitative and qualitative
methods. The agency should document the decision on which combination of
technologies, practices, and management controls minimize risk while maximizing
benefits.

In November 2000, the Department of Justice (DOJ) issued guidance entitled “Legal
Considerations in Designing and Implementing Electronic Process: A Guide for Federal
Agencies.” The guidance recommends that, when deciding whether to convert paper
processes to electronic ones, agencies should conduct an analysis of the transaction or
process to determine the level of protection needed and level of acceptable risk.

The DOJ guidance also comments on the appropriateness of total conversion to a
paperless process. Agencies should consider whether some paper documents should
continue to be used. The guidance advises that sometimes “retaining a paper
document might be the best, most certain, and easiest to prove medium for establishing
a legally significant transaction or event.” The Government Paperwork Elimination Act
does not require the use of electronic processes if an agency concludes that such use is
not practicable for a particular transaction.
The National Institute of Standards and Technology has also provided guidelines for
Federal agencies planning Internet services that require electronic authentication. The
guidelines suggest a risk analysis similar to that recommended by OMB and DOJ.

RRB management did not believe that a cost and risk analysis was necessary because
they believed the agency was following the efforts of other agencies. Several Federal
agencies are using a PIN/Password system for some Internet transactions, but the OIG
did not identify any agencies that are using the PIN/Password system as an electronic
signature for benefit applications. For example, the Social Security Administration
(SSA) offers on-line benefit applications, but the application must be printed and signed.
Furthermore, SSA has suspended the expansion of its PIN/Password system pending
the completion of a more comprehensive E-Authentication strategy. The Department of
Veterans Affairs also has an on-line application, but requires a printed and signed
signature page.

RRB management also relied on an October 2001 legal opinion from the RRB’s general
counsel who advised that there are no legal objections to using the PIN/Password
system as an alternative to a signature. However, the legal opinion does not excuse the
agency from a risk and cost analysis. The opinion referred to the November 2000 DOJ
document that recommended performing a cost-based risk analysis to assess using
electronic methods instead of paper transactions.

Management also relied on discussions with the OIG during development of the
PIN/Password system. The OIG reviewed and commented on portions of the system as
part of the agency’s process to obtain OMB’s approval to obtain personal information
through the PIN/Password system. However, we did not perform the analysis
necessary to determine if PIN/Password is the best authentication method based on
costs and risks.

Because the RRB did not adequately follow guidance in this area, the agency may not
have chosen the most cost-effective, risk-appropriate authentication method for each
underlying Internet service. Without the risk assessment, the agency has not fully
demonstrated that the PIN/Password system provides a sufficient level of authentication
to meet the agency’s litigation and administrative needs. In addition, the agency is at
increased risk of incurring unforeseen costs to manage and maintain the password
databases because the costs have not been quantified and documented. Finally, the
agency has not documented that the PIN/Password system will adequately protect the
agency against unlawful disclosure of personal information.

Recommendations

The Office of Programs should:

   •	 perform and document a risk and cost benefit analysis for each of the railroad
      employee and annuitant Internet services. The analyses should determine
      whether PIN/Password is the most appropriate authentication method or if
      another system of authentication (electronic or paper) should be used
      (Recommendation #1).

   •	 complete the risk and cost benefit analysis prior to implementing the on-line
      unemployment, sickness and retirement benefit applications (Recommendation
      #2).

The Bureau of Information Services should establish procedures that comply with
Federal guidance on selecting and implementing authentication methods for on-line
services (Recommendation #3).

Management’s Response

The Office of Programs concurs with recommendation #1. They advised that they have
completed the analysis for the proposed unemployment and sickness services and will
complete the analysis for the currently operational Internet services by March 30, 2004.
The Office of Programs also concurs with recommendation #2. They will not implement
any Internet benefit applications until after completion of the suggested analyses. A
complete copy of their response, without attachments, is included in Attachment 1.

The Bureau of Information Services concurs with recommendation #3 and will update
the appropriate Information Technology Standards and Procedures by the end of fiscal
year 2005. A complete copy of their response is included in Attachment 2.

Recent OMB Mandate on E-Authentication Interagency Compatibility

On July 3, 2003, OMB issued a memorandum to all Federal agency Chief Information
Officers stating that agencies should pursue a cross-agency approach for authentication
and identity management. OMB advised that it is executing Federal-wide acquisitions
of authentication technology, including PIN/Password, and is requesting agencies not to
acquire authentication technology without prior consultation with the government-wide
E-Authentication team.

OMB also advised that it is consolidating agency investments in credentials and PKI
services. It will select shared service providers by December 31, 2003, with agency
migrations to those selected shared service providers occurring throughout FY 2004
and 2005. In the memorandum, OMB advises: “There will be no new funding in FY06
for authentication or identity management investments not related to the selected
shared service providers… Agencies should develop migrations plans to the shared
service with planning work beginning now and a final plan expected following the
selection of the shared service providers.”

RRB management has been monitoring the E-authentication initiative and has agreed to
consider this mandate in the analyses required in recommendation #1. The OIG will
monitor compliance with this mandate to ensure that compatibility and the potential
funding risks of non-compatibility are adequately reflected in the cost and risk analyses.
